U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




              PUBLIC
             RELEASE


                 INTERNATIONAL TRADE
                      ADMINISTRATION

                 Dallas USEAC Is Rebuilding
                 to More Aggressively Pursue
                  Export Promotion Activities

        Inspection Report No. IPE-11006 / September 1998




            Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                  Final Report IPE-11006
Office of Inspector General                                                                                         September 1998


                                                TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          I.        Although USEAC Is Providing Adequate Service to Existing Clients, Greater
                    Opportunities Exist to Be More Effective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                    A.        Clients and partners appear pleased with most products and services . . . . 4

                    B.        Office is not aggressively pursuing new clients and trade promotion
                              activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          II.       Staffing Limitations Have Adversely Affected Operations . . . . . . . . . . . . . . . . . . 9

          III.      Staff Frustrated with Problematic Computer Upgrades . . . . . . . . . . . . . . . . . . . 12

          IV.       Most Administrative Activities Handled Well . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                    A.        Internal controls over collections can be improved . . . . . . . . . . . . . . . . 14

                    B.        Trade reference assistant is spending all of her time on administrative
                              responsibilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
U.S. Department of Commerce                                                     Final Report IPE-11006
Office of Inspector General                                                            September 1998


                                   EXECUTIVE SUMMARY



The Department of Commerce’s International Trade Administration leads the federal
government’s efforts to increase U.S. exports. ITA’s U.S. and Foreign Commercial Service
(US&FCS), as the federal government’s most visible export promotion agency, is charged with
fostering and promoting a high level of export awareness among the U.S. business community.

US&FCS, through its Office of Domestic Operations, operates an Export Assistance Center
(EAC) network with 19 U.S. Export Assistance Centers (USEACs) connecting 100 smaller EACs
in a “hub and spoke” network. The key objective of the USEACs is to enhance and expand
federal export marketing and trade finance services through greater cooperation and coordination
between federal, state, and local partners.

During the week of June 8-12, 1998, the Office of Inspector General conducted an inspection of
the US&FCS’s Dallas USEAC. We also visited the Austin EAC, which reports directly to the
Dallas USEAC, as do the EACs in Fort Worth, Houston, San Antonio, Oklahoma City, and
Tulsa. In addition to supervising the efforts of these EACs, the Dallas USEAC is also responsible
for directly servicing U.S. companies primarily in the Dallas metropolitan statistical area. The
USEAC has a fiscal year 1998 budget of about $360,000 and, at the time of our visit, had a staff
of seven.

Dallas is the eighth largest city in the United States and the second largest in Texas, with more
than 1 million residents within the city limits and nearly 3 million in the metropolitan area. One of
the major industry sectors in the area is high technology. The “Telecom Corridor” in the suburbs
of Richardson and Plano represents the largest concentration of telecommunications firms in the
United States. The Dallas metropolitan area had $7.1 billion in exports in 1996. The area also
ranked 13th in the greatest dollar gains in growth of merchandise export value from 1993 to 1996,
according to Census Bureau data.

In interviewing some USEAC clients, we found them generally satisfied with the quality of the
services provided. The close proximity of the office to federal, state, and local partners allows for
close cooperation, and the partners generally have a positive impression of the service that the
USEAC provides. However, we found several issues that warrant management’s attention.


•      Dallas USEAC was not aggressive in its pursuit of new clients and trade promotion
       activities. The staff and some of the partners that we spoke with in Dallas stated that
       because of the USEAC’s lack of sufficient staffing and problems with their information
       technology, their counseling and other export promotion activities tended to be reactive

                                                  i
U.S. Department of Commerce                                                      Final Report IPE-11006
Office of Inspector General                                                             September 1998


       rather than proactive. The staff also expressed their reluctance to actively pursue new
       clients for this reason (see page 4).

•      Staffing issues have adversely affected the operations of the Dallas USEAC. We
       learned that (1) the Dallas office’s most senior trade specialist is retiring, (2) the lone trade
       specialist in San Antonio was accepted into the foreign service and transferred on August
       1, 1998, and (3) replacements for these positions have not yet come on board. In
       addition, the office recently lost a personal services contractor who was primarily
       responsible for updating the USEAC’s database of clients. When vacancies are
       anticipated at key positions in the future, the USEAC and the St. Louis regional office
       must make a greater effort to fill the vacancies, preferably allowing some overlap time
       between the incumbent’s departure and his or her replacement’s arrival. In addition, we
       found that vacancy announcements issued to fill behind the departing trade specialists
       were open to only status employees. The agency reportedly did not receive an adequate
       response to the announcements. Agency officials should consider ceasing to accept
       applications only from “status” candidates and opening vacancies to non-status applicants
       as well (see page 9).

•      Staff frustrated with problematic computer upgrades. During our visit, computer
       upgrades in the USEAC were not completed and were creating problems for the staff in
       Dallas. The most severe problem was that the office’s E-mail was not working properly.
       We were also informed that some client data was reportedly lost during the conversion to
       a new client tracking database. Additionally, although all staff members now have Internet
       access, they reportedly do not have adequate training to make effective use of the Internet.
       Lastly, the systems administrator in Dallas is not sufficiently knowledgeable about
       information technology to troubleshoot many of the problems the office encounters (see
       page 12).

•      Internal controls over collections should be improved. We found that the office
       submitted user fees when appropriate and user fee transaction records on a weekly basis to
       the bank and the appropriate headquarters units, as required by US&FCS instructions.
       However, no independent reconciliations were made of user fees and the transaction
       records. One person was responsible for recording, submitting, and sometimes even
       collecting payments. In addition, receipts were not kept in a combination locked cabinet
       as instructed by US&FCS headquarters, and no reconciliations were made at headquarters
       of bank statements and deposits reported by the USEAC (see page 14).

•      Trade reference assistant is spending all of her time on administrative
       responsibilities. In our interviews with office staff, we learned that the assigned duties of
       the trade reference assistant were not commensurate with her performance plan. While at
       the USEAC, we found that the employee’s assignments did not include any client

                                                  ii
U.S. Department of Commerce                                                     Final Report IPE-11006
Office of Inspector General                                                            September 1998


       counseling, interaction with clients seeking assistance, or substantive work with USEAC
       partners, as stated in her plan. Instead, the assistant spent all of her time on administrative
       functions–not only for the Dallas office, but also for the Austin, Fort Worth, and San
       Antonio offices (see page 16).

On page 18, we offer a number of recommendations to address our concerns.



In the agency’s written response to our draft report, the Assistant Secretary and Director General
of the US&FCS outlined steps US&FCS was taking to comply with the intent of most of our
recommendations. She did, however, disagree with the details of some of our observations.

The Director General stated that “while the report attempts to point out both strengths of the
office and areas where improvement is needed, I feel the title of the report . . . suggests a negative
bias not supported by the report’s findings.” We have modified the title of our report to reflect
the fact that staffing shortages contributed to the USEAC’s shortcomings discussed in our report.

US&FCS’s entire response to our draft report begins on page 19.




                                                  iii
U.S. Department of Commerce                                                  Final Report IPE-11006
Office of Inspector General                                                         September 1998


                                       INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General evaluated the U.S. and Foreign Commercial Service (US&FCS) U.S. Export
Assistance Center (USEAC) in Dallas.

Inspections are special reviews that the OIG undertakes to provide agency managers with
information about operational issues. One of the main goals of an inspection is to eliminate waste
in federal government programs by encouraging effective and efficient operations. By asking
questions, identifying problems, and suggesting solutions, the OIG hopes to help managers move
quickly to address problems identified during the inspection. Inspections may also highlight
effective programs or operations, particularly if they may be useful or adaptable for agency
managers or program operations elsewhere. This inspection was conducted in accordance with
the Quality Standards for Inspections issued by the President's Council on Integrity and
Efficiency. Our field work was conducted from June 8 through 12, 1998. During the review and
at its conclusion, we discussed our findings with the Director of the Dallas USEAC, the Director
of the St. Louis Regional Office, and the Deputy Assistant Secretary for Domestic Operations.


                                   PURPOSE AND SCOPE

The purpose of this inspection was to determine how effective the Dallas USEAC is in delivering
services to its business clients, how well it coordinates its activities with state and local
organizations involved in export promotion, and how well the staff of the various agencies at the
USEAC interact and jointly help business clients. We also assessed the adequacy of internal
controls and the office’s compliance with selected Department and ITA policies and procedures.
Since inspections are primarily designed for quick corrective actions by agency managers, they
normally do not include the detailed testing associated with a performance audit.

To perform our review, we examined pertinent records and documents and interviewed staff at
the USEAC in Dallas and the Export Assistance Centers in Austin and Fort Worth. We also
spoke by telephone with the EAC director in San Antonio. In addition, we interviewed many
representatives from the Department and other government agencies–federal, state, and local. We
also interviewed individuals from the private sector to see what they believe the Department can
and should do to help them export, as well as to obtain their impressions of the services provided
by the Dallas USEAC.




                                                1
U.S. Department of Commerce                                                    Final Report IPE-11006
Office of Inspector General                                                           September 1998


                                         BACKGROUND



US&FCS, a component of the International Trade Administration, is a global network of trade
specialists and commercial officers located in more than 220 cities worldwide to assist U.S.
exporters. US&FCS is present in 78 countries, which reportedly represent more than 95 percent
of the world market for U.S. exports. In the United States, US&FCS operates a hub-and-spoke
network of 100 Export Assistance Centers (EACs), which offer companies a range of export
facilitation services.

The mission of the USEAC “hub and spoke” network is to deliver an array of export counseling
and trade finance services to U.S. firms, particularly small and medium-sized ones. The USEAC
network integrates the export marketing know-how of the Department of Commerce with the
trade finance expertise of the Small Business Administration (SBA) and the Export-Import
(Ex-Im) Bank. In some instances, USEACs have gone beyond being simply a federal partnership
by also incorporating the resources of state and local export promotion organizations.

USEACs focus on service to U.S. business clients. They provide counseling to U.S. firms
beginning to venture into overseas markets, as well as those seeking to expand their international
activities. USEAC trade specialists help firms enter new markets and increase market share by
(1) identifying markets for their products, (2) developing a market entry strategy aided by
information generated from US&FCS’s overseas offices, and (3) assisting with trade finance
programs that are available through federal, state, and local (public and private sector) entities.

The Dallas USEAC (hub) oversees six EACs (spokes) in Texas and Oklahoma: Austin, Ft. Worth,
Houston, San Antonio, Oklahoma City, and Tulsa. In addition, it provides export promotion and
facilitation services to U.S. firms in the Dallas metropolitan area.

Dallas is the eighth largest city in the United States and the second largest in Texas, with more
than 1 million residents within the city limits and nearly 3 million in the metropolitan area. One of
the major industry sectors in the area is high technology. The “Telecom Corridor” in the Dallas
suburbs of Richardson and Plano represents the largest concentration of telecommunications firms
in the United States. The Dallas metropolitan area had $7.1 billion in exports in 1996. The area
also ranked 13th in the greatest dollar gains in growth of merchandise export value from 1993 to
1996, according to Census Bureau data. Real gross area product currently stands at more than
$94 billion. Texas is the second largest exporting state in the United States.

At the time of our visit, the Dallas USEAC was staffed with one director, two trade specialists,
one trade reference assistant, one SBA representative, and two part-time interns. The USEAC’s


                                                 2
U.S. Department of Commerce                                                 Final Report IPE-11006
Office of Inspector General                                                        September 1998


budget for fiscal year 1998, including salaries and expenses, was $358,816. The budgets for the
Dallas USEAC and all EACs that report to it are shown in Table 1.

Table 1:          Fiscal Year 1998 Budgets for Dallas USEAC
                  and EACs Reporting to it

                  Center                    Budget
 Austin                                        $70,419
 Dallas                                        358,816
 Fort Worth                                     82,014
 Houston                                       408,135
 Oklahoma City                                 208,872
 San Antonio                                    95,931
 Tulsa                                          72,894
          Total                               $938,265




                                               3
U.S. Department of Commerce                                                                 Final Report IPE-11006
Office of Inspector General                                                                        September 1998


                               OBSERVATIONS AND CONCLUSIONS


I.       Although USEAC Is Providing Adequate Service to Existing Clients,
         Greater Opportunities Exist to Be More Effective

US&FCS’s trade specialists provide one-on-one trade counseling; respond to requests for
information; sell US&FCS products and services, such as the Gold Key Service1, International
Company Profiles2, and the Agent/Distributor Service3; speak at seminars; and participate in other
initiatives with their local trade promotion partners, such as the SBA, Ex-Im Bank, and chambers
of commerce. We interviewed a sample of the Dallas USEAC’s clients to discuss the quality of
services provided. The clients expressed general satisfaction. The collocation of the US&FCS
staff with its partners in the World Trade Center allows for close cooperation. In addition, the
partners generally have a positive impression of the service that the USEAC provides. However,
we noted and several of the partners we interviewed expressed concern about the lack of
aggressive trade promotion efforts by the Dallas USEAC.

A.       Clients and partners appear pleased with most products and services

We interviewed a randomly selected sample of the Dallas USEAC clients. Most that we were
able to contact were generally satisfied and spoke highly of the USEAC staff. All of the sampled
clients felt that the staff was prompt in returning phone calls and fulfilling information requests.
Several clients stated that the trade leads developed by the trade specialists resulted in both export
sales and ongoing business relationships with overseas companies. Other clients explained that
although not all trade leads or counseling resulted in export actions, they were satisfied with the
professionalism of the staff and the availability of the services. USEAC staff were described as
helpful and thorough. Most of the clients that we interviewed also were satisfied with US&FCS
products and services sold through the USEAC. For example, the Gold Key Service was
repeatedly mentioned as a valuable tool for entering new export markets.

The collocation of the US&FCS staff with an SBA international trade finance specialist and the
proximity of an Ex-Im Bank city/state representative and other partner organizations in the World
Trade Center, where the USEAC is located, also facilitates the delivery of services to the

         1
          Through the Gold Key Service, US&FCS trade specialists in a target country will arrange appointments
for a U.S. exporter with prescreened contacts whose interests and objectives match those of the client.
         2
         International Company Profiles are background checks on potential international clients that help reduce
U.S. exporters’ risk in doing business overseas.
         3
          The Agent/Distributer Service is a customized overseas search for qualified agents, distributors, or
representatives for U.S. firms.

                                                         4
U.S. Department of Commerce                                                   Final Report IPE-11006
Office of Inspector General                                                          September 1998


USEAC’s clients. We found that the SBA representative and the US&FCS trade specialists
frequently refer clients to each other. Because the SBA representative is located within the
USEAC, often the trade specialists will simply walk clients over and introduce them to the
representative. This collocation also ensures that all of the representative’s time is spent on
SBA’s trade financing programs as opposed to other non-trade finance related assignments by
SBA officials, which might occur if he was located at SBA’s local office in Garland, Texas.

The Ex-Im Bank’s city/state representative, who works for the Greater Dallas Chamber of
Commerce, also collaborates with the USEAC. The Ex-Im Bank representative sits in the
Chamber of Commerce’s office, also located in the World Trade Center, across the hall from the
USEAC. USEAC staff and the Ex-Im representative both stated that while they cooperated
substantially, his not being located within the USEAC office did somewhat limit their interaction.
Despite its advantages, relocation of the representative within the USEAC is not expected
because he is employed by the chamber, not Ex-Im Bank.

Although the SBA and Ex-Im Bank representatives consider themselves competitors of sorts
because they both offer loan guarantees for U.S. companies seeking financing from lenders, the
US&FCS trade specialists refer clients to both agency representatives depending mostly on how
large a loan is needed and whether the client requires insurance, which is usually obtained from
Ex-Im Bank.

In addition to the SBA and Ex-Im Bank representatives, the Dallas USEAC will soon provide
space to a representative of the U.S. Department of Agriculture’s Foreign Agriculture Service.
Currently, the USEAC staff counsel and otherwise assist processed food manufacturers, but not
raw food producers. The addition of agricultural export promotion counseling and the USEAC’s
increased cooperation with the Texas Department of Agriculture should expand the export
promotion services available at the Dallas USEAC and provide valuable synergies in the area of
food and food processing equipment.

We found similar cooperative efforts at several of the EACs. Representatives from the EACs
with whom we interviewed indicated that by collocating with state and local partners, the centers
gain a better working relationship with the partners. In addition, the EACs often receive donated
space. For example, the Texas Department of Economic Development hosts the Austin EAC. In
addition to getting free space, the Austin EAC receives the use of the department’s fast T-1 line
Internet hook-up for the EAC director. Without the T-1 hook-up, she would have to rely on a
more cumbersome, less reliable dial-in modem access. In addition, the Austin director serves as
the primary contact with the department’s Office of Trade and International Relations for each
EAC in Texas. This partnership allows the USEAC to disseminate information on Texas trade
missions to its clients, and the state gains better access to US&FCS’s overseas offices through its
interaction with the EAC. Likewise, the San Antonio EAC is hosted by that city’s International


                                                 5
U.S. Department of Commerce                                                     Final Report IPE-11006
Office of Inspector General                                                            September 1998


Affairs Department, and the Fort Worth EAC is hosted by the City of Fort Worth. In both cases
the office space is provided free of charge.

The partners in Austin highly praised the director of the Austin EAC. Representatives from
several organizations that work closely with the EAC praised the involvement of the director in
various trade-related activities, including exporting seminars, conferences, and roundtables. One
partner described the service provided by the EAC director as “no hassle, professional, and
straightforward.”

Although most partnering organizations generally were positive in their assessment of the work of
the US&FCS staff in both the Dallas and Austin offices, most also noted some concerns about the
passive nature of the Dallas USEAC.

B.     Dallas USEAC is not aggressively pursuing new clients and trade promotion activities

During our review, we saw little to suggest an aggressive and proactive approach to trade
promotion in Dallas. The staff of the Dallas USEAC said that due to insufficient staffing (see
page 9) and information technology problems (see page 12), their counseling and other export
promotion activities tended to be reactive. In addition, staff in Dallas expressed their reluctance
to actively pursue new clients for the same reason. Consequently, the staff indicated that the
office’s new clients have initiated contact with the USEAC primarily because they heard about the
office through various seminars sponsored by its partners, not through active USEAC recruiting.

Although the staff in Dallas impressed us as being competent and well-qualified, they were too
often described by several partners and US&FCS officials as not highly motivated, aggressive, or
proactive. The Dallas staff attributed this condition to staffing shortages, as well as frequent non-
client servicing tasks required by headquarters and others, such as reporting requirements and
hosting dignitaries visiting the area. Some partners went on to say that although the office
provided adequate service, they would like more visibility, more outreach, and more USEAC
participation in their events. USEAC officials argue that it would be impossible for them to
participate in every event sponsored by one of its partners, while continuing to provide export
counseling, US&FCS products, and other services.

We agree that it is necessary for the USEAC to prioritize its efforts. However, we found key
areas where the Dallas USEAC has not been aggressive. Specifically, (1) the current and
expected problems with its staffing shortages could have been minimized if a greater, expanded
effort was made to recruit for announced vacancies (see page 9), (2) the office does not have
adequate skills in information technology nor has it aggressively pursued alternatives to getting its
information technology operating properly (see page 12), and (3) several interesting and
innovative initiatives highlighted in its fiscal year 1998 strategic plan were not being pursued,
including the following.

                                                  6
U.S. Department of Commerce                                                         Final Report IPE-11006
Office of Inspector General                                                                September 1998


•      Developing “beyond export action” performance evaluation criteria: The USEAC
       director planned to develop criteria to recognize support activities the staff provides its
       clients, such as participating in trade events; bringing speakers and conferences to the area
       for client education; and developing and maintaining new and ongoing partnerships. The
       director remarked that this project has not been given adequate attention because of
       competing priorities and limited staffing.

•      Updating and expanding the client database: The USEAC set a goal to enter into its
       database 150 new clients from the agriculture and apparel sectors and from other sectors,
       as appropriate. Part of this project was to enter fax numbers into the automated fax
       system and to enter E-mail addresses for all clients to better utilize electronic commerce.
       Although some progress was made on this effort, when the personal services contractor,
       who was primarily responsible for this endeavor, left the office, the effort slowed
       considerably. Officials from the USEAC are reportedly awaiting the additional staff to
       resurrect this project.

•      Getting trade specialists overseas experience: Although the USEAC staff were
       expected to participate in out-of-country trade events, none, as of the date of this report,
       had visited an overseas post. The director said that he has stressed the importance of
       trade specialists having some form of international experience, but his staff had not yet
       taken advantage of opportunities for overseas travel for a variety of reasons, including
       lack of available time and interest.

Fortunately, the office has been able to pursue several important initiatives, such as its work with
the Dallas Market Center4 to increase export awareness by publishing relevant news releases in
the center’s newsletter and allowing the USEAC staff to address the center’s members at local
meetings. As stated previously, the USEAC is working to increase its use of its partners by
locating within the USEAC an international trade specialist from the Foreign Agriculture Service.

We do not mean to imply that the Dallas USEAC was not providing valuable services to
exporters. However, we believe that the aforementioned lost opportunities have limited the
office’s effectiveness. The director stated that he has taken steps to train his staff on time
management and is moving to fill key vacancies in the office. Although these are steps in the right
direction, other efforts may be necessary to encourage the staff to more aggressively pursue useful
trade promotion activities, such as providing stronger encouragement to staff to pursue temporary
duty assignments at overseas posts and requiring them to become more proficient in their use of
information technology.



       4
        A large wholesale market complex with more than 2,600 permanent and 2,300 temporary exhibitors.

                                                    7
U.S. Department of Commerce                                                    Final Report IPE-11006
Office of Inspector General                                                           September 1998




In its response, agency officials state that the Dallas USEAC has submitted its fiscal year 1999
strategic plan that outlines several initiatives to “increase its effectiveness in promoting exports
and improve service delivery to its clients especially rural clients.” Although this meets the intent
of our recommendation, we remain concerned about whether the goals of the plan can actually be
accomplished. The USEAC only achieved about 70 percent of its export actions, 69 percent of its
new clients, and 75 percent of its success stories projected in its fiscal year 1998 plan.




                                                 8
U.S. Department of Commerce                                                            Final Report IPE-11006
Office of Inspector General                                                                   September 1998


II.    Staffing Limitations Have Adversely Affected Operations

At the time of our inspection, the Dallas USEAC was staffed with a director, two international
trade specialists, an SBA international trade finance specialist, a trade reference assistant, and two
part-time interns. The office had vacancies for an entry-level trade specialist, a supervisory trade
specialist, and a full performance-level trade specialist. During our review, we learned that (1) the
USEAC’s most senior trade specialist is retiring, (2) the lone trade specialist in San Antonio
transferred to the foreign service on August 1, 1998, and (3) replacements for these positions
have not yet come on board. In addition, as noted earlier, the office recently lost a personal
services contractor who was primarily responsible for updating the USEAC’s database of clients.

Staffing shortages in Dallas

The staffing shortages in the Dallas USEAC have hampered the office’s ability to aggressively
pursue clients and actively participate and develop new projects and initiatives. One employee
stated that the staff try to be proactive, but it is difficult with the extent and range of their
responsibilities, from general office work to counseling and assisting their large client base.
Another staff member stated that the staff are spread so thin that it is difficult to pursue new
initiatives, especially considering (1) such activity often increases workloads and (2) the trade
specialists lack basic support, such as that provided by a trade reference assistant (see page 16).
In addition, trade specialists complain that they do not have enough time to routinely follow up
with clients after providing services or selling products.

One partner even noted that “the office’s biggest problem is that it is understaffed; they cannot be
aggressive or proactive–they can barely answer the phone.” The office lacks a full-time employee
to answer phones and greet walk-in clients and visitors. Several partners noted that their activity
level increases when the USEAC refers its clients to them for assistance, rather than providing the
assistance itself. On the one hand, this demonstrates the USEAC’s ability to marshal resources to
get the job done. On the other hand, some partners believed that the USEAC would be better
positioned to provide the needed service if it were adequately staffed.

Upon receiving official notification from the trade specialist in Dallas of her decision to retire, a
request for a vacancy announcement for only status employees5 was sent to the Central
Administrative Support Center on February 17, 1998. Not receiving an adequate response, the
office then turned to candidates who applied under a national vacancy announcement–also only
for status employees. A selection was made, and the candidate was scheduled to report in the
middle of August. This would leave the Dallas office with one remaining vacancy.



       5
        Status employees are those that are currently employed by the Federal government.

                                                      9
U.S. Department of Commerce                                                       Final Report IPE-11006
Office of Inspector General                                                              September 1998


Trade specialist in San Antonio leaving without a replacement identified

The San Antonio EAC is staffed with one trade specialist/EAC director and one personal services
contractor. The office maintains about 400 firms in its client database and averages 50 export
actions per year.

San Antonio boasts one of the fastest growing metropolitan areas. Since 1992, the San Antonio
economy added nearly 83,600 jobs with 59,700, or close to three-quarters of them, in three
sectors: trade, service, and government. Employment in these sectors increased at an average
annual rate of 2.9 percent, 5.2 percent, and 1.4 percent, respectively. As San Antonio's second-
largest industry sector, trade represents one-quarter of total non-farm employment.

The sole trade specialist in San Antonio transferred to the foreign service and relocated to the
US&FCS post in Mexico City on August 1, 1998. A replacement has not yet been found.
Consequently, the office will likely be without a trade specialist for some time. The departing
trade specialist stated that he informed his supervisors of his intention to join the foreign service at
the beginning of calendar year 1998. Both US&FCS’s regional director in St. Louis and the
USEAC director in Dallas informed us that a vacancy announcement was issued in March 1998
for status employees to fill the position in San Antonio. In addition, they stated that an E-mail
was sent out to both overseas and domestic field offices notifying them of the upcoming vacancy
in San Antonio. They reportedly received no response, and the search for a replacement
continues. The USEAC director attributed some of the problem with finding a replacement in San
Antonio to the area’s low unemployment rate, which was 3.7 percent in March of 1998, its lowest
in three years. However, because the vacancy announcement was open only to status employees,
the unemployment rate should not have been a factor in filling the job.

When vacancies are anticipated at key positions in the future, the USEAC director and the St.
Louis regional director must make a more aggressive effort to fill the vacancies, preferably
allowing some overlap time between the incumbent’s departure and his or her replacement’s
arrival. US&FCS headquarters officials should more closely monitor domestic staffing issues to
help ensure that prompt action is taken to fill pending or existing vacancies and avoid gaps in
service. Agency officials should also consider opening vacancies to all qualified applicants, status
and non-status; restricting positions to only status employees limits the pool of qualified
applicants. Moreover, because the agency had control over when the trade specialist was to
transfer to Mexico City, agency officials should have considered holding up the assignment until a
replacement was found to make for an easier transition.




                                                  10
U.S. Department of Commerce                                                 Final Report IPE-11006
Office of Inspector General                                                        September 1998




In response to our recommendation, agency officials stated that civil service regulations and ITA
policy prohibit them from filling a position while it is encumbered. While we understand that an
encumbered position cannot be filled, US&FCS can recruit and select a replacement to start work
immediately upon the incumbent’s departure. In this way, gaps in service can be avoided. The
intent of our recommendation was to (1) limit the amount of time between incumbents and their
replacements and (2) ease the transition between the two. In the case of the San Antonio director
who was reassigned to US&FCS’s overseas post in Mexico, US&FCS could have kept him at the
EAC until a replacement was found.




                                               11
U.S. Department of Commerce                                                  Final Report IPE-11006
Office of Inspector General                                                         September 1998


III.   Staff Frustrated with Problematic Computer Upgrades

During the past year, US&FCS has undertaken an initiative to modernize its technology by
upgrading its office automation infrastructure, improving client tracking, and developing a
standard system platform for sharing information. The domestic network of USEACs and EACs
received (1) modern desktop computers connected to local area networks, (2) a high-speed
telecommunications network connecting domestic sites and headquarters, and (3) Internet access.

This modernization effort also replaced US&FCS’s older system for managing its client contact
lists, the Commercial Information Management System–which trade specialists were reluctant to
use because it was perceived as being too time consuming and complex–with a new client
tracking database: Client Management System (CMS). The initial version of CMS has been
deployed to all domestic field offices.

Unfortunately, the upgrades in the Dallas USEAC, which were made by a trade specialist from
another office, were not completed and thus created several problems for the staff in Dallas. The
most severe problem was that the office’s E-mail was not working properly.

Dallas staff members told us that the E-mail has not been working since the new system was
installed in April. This has caused serious communication problems with overseas posts, clients,
and partners. We were told that the Dallas office became aware that the system was not working
properly when overseas posts began to contact other offices in the Dallas USEAC network
complaining about Dallas’s lack of response to E-mail requests. Clients and other partners who
use E-mail to communicate with the USEAC also were not getting through. One staff member
stated that “we have no idea of what we did not get.”

We were also informed that some client data was reportedly lost during the conversion from the
older system to CMS. Additionally, although Internet access is now available to all staff
members, they do not have adequate training to effectively use this new tool. Finally, the
designated systems administrator in the USEAC is not sufficiently literate in information
technology to troubleshoot many of the problems the office encounters. Other staff members also
stated that they needed CMS-specific refresher training because their original training was
provided far in advance of the system’s installation.

The St. Louis regional office hired one contractor to address information technology problems
that may arise region-wide. After our review, the contractor visited the Dallas office and
reportedly resolved its technical problems. US&FCS officials should ensure that the USEAC’s
new technology is working properly. The agency should also provide training specific to the
Client Management System to the Dallas USEAC staff, paying particular attention to Internet
training and the information technology training needs of the designated systems administrator.


                                               12
U.S. Department of Commerce                                                 Final Report IPE-11006
Office of Inspector General                                                        September 1998




Agency officials stated in their response that “in the Dallas USEAC, CMS is operating more
effectively after assistance from the Regional Technology Specialist who conducted a complete
review of all hardware, software, and training skills of the Dallas USEAC.

In response to our recommendation that US&FCS “provide training specific to the Client
Management System to the Dallas USEAC staff, paying particular attention to Internet training
and the information technology training needs of the designated systems administrator,” agency
officials noted that “training from outside vendors often proved irrelevant to our applications.”
For this very reason, we recommended that training be specific to the Client Management System.
We are pleased to learn that intensive training has been scheduled for the systems administrator,
and CMS and Internet training was provided in August and will be repeated in at the end of the
calendar year.




                                               13
U.S. Department of Commerce                                                          Final Report IPE-11006
Office of Inspector General                                                                 September 1998


IV.      Most Administrative Activities Handled Well

During our inspection, we reviewed a number of administrative activities, including records for
time and attendance, travel, inventory, purchases, and revenue collections. Although we found
that most administrative activities were handled well, the office needs to improve internal controls
over its user fee collections. We also found that a disproportionate amount of the trade reference
assistant’s time was spent performing administrative tasks.

A.       Internal controls over collections should be improved

The Dallas USEAC provides products and services to U.S. companies to help them expand their
business in the international marketplace. Some products and services are offered for a fee. For
example, the Agent Distributor Service costs $250, and the International Company Profile costs
$100. Total user fees collected and reported by the Dallas USEAC for the period October 1997
through May 1998, were $7,250, as shown in Table 3.

Table 2: User fee collections* (October 1997 - May 1998)
                              Agent/Distributor           International           Customized Market
                                  Service                Company Profile               Analysis
 October                                     $0                         $0                        $0
 November                                   500                        200                          0
 December                                      0                         0                          0
 January                                    750                          0                          0
 February                                   500                        400                          0
 March                                      250                        100                     2,100
 April                                    1,250                        100                          0
 May                                      1,000                        100                          0
          Total                         $4,250                       $900                     $2,100

*Collections were for the Dallas USEAC and the Austin, Fort Worth, and San Antonio EACs.

According to guidance provided by US&FCS headquarters, the USEAC, upon receiving payment,
should (1) have one person complete a transaction record, which details the amount of
collections, companies serviced, date of sale, and products sold; (2) have a second person


                                                    14
U.S. Department of Commerce                                                  Final Report IPE-11006
Office of Inspector General                                                         September 1998


reconcile the payment with the transaction record; (3) mail the deposit and a copy of the
transaction record to a bank lock box in Chicago; and (4) mail a copy of the transaction record
and a copy of the payment to US&FCS’s Export Promotion Services and ITA’s Office of
Financial Management.

We found that the USEAC submitted user fees when appropriate and user fee transaction records
on a weekly basis to the bank and the appropriate headquarters units as required by US&FCS
instructions. However, no independent reconciliations were made of payments and the
transaction records. One person was responsible for recording, submitting, and sometimes even
collecting payments. In addition, receipts were not kept in a combination locked cabinet as
instructed by US&FCS headquarters.

Although we found no evidence of fraudulent activities, the process in place in the Dallas USEAC
is evidence of poor internal controls. At a minimum, a second USEAC employee should reconcile
the payments received with the transaction record. Also, a more secure lock box is need to hold
collections in the office.

After our visit, we learned that no reconciliation was performed at headquarters on collections
reported by the USEAC in the transaction record and what was reported as being deposited by
the bank, even though all the necessary information was readily available. Consequently, there is
no way to determine whether the collections reported by the USEAC were actually deposited.

We are aware of the problems ITA has been experiencing with its accounting system. In fiscal
year 1997, the agency received a disclaimer of opinion on its financial statements because of its
poor accounting system and internal control weaknesses. Although, we are not attempting in this
report to fix ITA’s accounting system, US&FCS, in conjunction with ITA’s Office of Financial
Management, should determine which organization within ITA or US&FCS will reconcile bank
statements with transaction records submitted by the USEAC. Such reconciliation should begin
immediately.



In response to our recommendation, the “Dallas USEAC has implemented the procedure to have
a second employee reconcile the payments received for user fees, and a small safe has been
purchased to secure checks before they are sent to the lock box.” This action meets the intent of
our recommendation.

Although the agency has taken steps to improve its collection process, the agency’s response did
not address our recommendation to “in conjunction with ITA’s Office of Financial Management,
determine which organization within ITA or US&FCS will reconcile bank statements with


                                                15
U.S. Department of Commerce                                                        Final Report IPE-11006
Office of Inspector General                                                               September 1998


transaction records submitted by the USEAC.” Because neither US&FCS nor ITA’s Office of
Financial Management provided us information as to which organization will perform
reconciliations, we have clarified the intent of our original recommendation. We recommend that
the Director General ensure that the USEAC reconciles its collection records against official ITA
accounting data provided by ITA’s Office of Financial Management. The ITA official accounting
data is provided to the regional office on a monthly basis and should be passed on to the USEAC.
We also note that on an ITA-wide level, the OIG has previously recommended that ITA’s Office
of Financial Management conduct reconciliations on all cash collections to ensure collections are
properly deposited and recorded. Recent audits of ITA’s consolidated financial statement by
Price Waterhouse have continually cited the failure to conduct such reconciliations as a material
weakness. The auditor has recommended that reconciliations of collections take place. Lack of
reconciliations is one of many material weaknesses that caused Price Waterhouse to issue a
disclaimer on ITA’s FY1997 consolidated financial statement.6


B.     Trade reference assistant spending all of her time on administrative responsibilities

In our interviews with office staff, we learned that the assigned duties of the trade reference
assistant were not commensurate with her performance plan. The employee’s assignments did not
include any type of client counseling, interaction with clients seeking assistance, or substantive
work with USEAC partners, as stated in her performance plan. Instead, the assistant spent all of
her time on administrative functions–not only for the Dallas office, but also for the Austin, Fort
Worth, and San Antonio offices. Her performance plan weights “counseling services” at 20
percent and “trade development partnerships, representation and promotional activities” at 15
percent. Although 35 percent of the employee’s time need not be spent on these activities, she
should be performing some form of counseling and substantive trade specialist support since it is a
critical element of her assigned duties.

The current situation is unfortunate for both the employee and US&FCS: the employee is not
receiving the experience necessary to advance, and the government is getting only a portion of
what that position is intended to accomplish.

US&FCS should assign the trade reference assistant duties that are commensurate with her
performance plan.




       6
        Audit of ITA’s FY 1997 Financial Statements, OIG Audit Report No. FCS-9862-8-0001



                                                   16
U.S. Department of Commerce                                                    Final Report IPE-11006
Office of Inspector General                                                           September 1998




Agency officials responded that the duties of the trade reference assistant are consistent with that
position’s performance plan based on her promotion on April 26, 1998. During our on-site
review, we requested that the director of the Dallas USEAC provide us with the current
performance plan and most recent performance evaluations. Based on the performance plan
provided to us by the USEAC director, the trade reference assistant was spending a
disproportionate amount of her time on administrative responsibilities. The agency’s response
noted that “one additional staffing requirement of the Dallas Office is that of a full-time
receptionist.” Upon hiring a receptionist, US&FCS should reassess the need for a trade reference
assistant to have Administration, Office Operations Support, and Technology Applications
account for 90 percent of the total weight of that position’s performance plan.




                                                 17
U.S. Department of Commerce                                                    Final Report IPE-11006
Office of Inspector General                                                           September 1998


                                   RECOMMENDATIONS

We recommend that the Director General and Assistant Secretary for the U.S. and Foreign
Commercial Service:

1.     Develop a plan that lays out a strategy for the Dallas USEAC to more aggressively pursue
       initiatives and activities designed to increase its effectiveness in promoting U.S. exports.
       For example, once the office is operating at full strength, stronger encouragement should
       be provided for staff to pursue temporary duty assignments at overseas posts (see page 6).

2.     Ensure that delays in filling behind vacant positions are minimized. US&FCS
       headquarters officials should more closely monitor domestic staffing issues to help ensure
       that prompt action is taken to fill pending or existing vacancies and avoid gaps in service.
       This may require opening vacancy announcements to non-status applicants (see page 9).

3.     Ensure that the USEAC’s recently installed Client Management System is working
       properly (see page 12).

4.     Provide training specific to the Client Management System to the Dallas USEAC staff,
       paying particular attention to Internet training and the information technology training
       needs of the designated systems administrator (see page 12).

5.     Improve internal controls over user fee collections at the USEAC by ensuring that (1) a
       second employee reconciles the payments received with the transaction records, and (2)
       collections are maintained in a secure location that meets US&FCS requirements (see page
       14).

6.     Ensure that the USEAC reconciles its collection records against official ITA accounting
       data provided by ITA’s Office of Financial Management (see page 14).

7.     Ensure that the duties of the trade reference assistant are compatible with the performance
       plan for that position by assigning duties and responsibilities consistent with the current
       plan (see page 16).




                                                18
U.S. Department of Commerce                     Final Report IPE-11006
Office of Inspector General                            September 1998


                              Agency Response




                                    19
U.S. Department of Commerce        Final Report IPE-11006
Office of Inspector General               September 1998




                              20
U.S. Department of Commerce        Final Report IPE-11006
Office of Inspector General               September 1998




                              21
